Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    WORLD TRADE CENTER
HEALTH PROGRAM: CDC SHOULD
    STRENGTHEN EFFORTS
  TO MONITOR AND EVALUATE
     CLINIC COMPLIANCE
    WITH CONTRACT TERMS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                     January 2014
                                                     A-02-11-02003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

 The Centers for Disease Control and Prevention did not monitor and evaluate World Trade
 Center Health Program clinic compliance with contract terms and conditions as required by
 Federal regulations.


WHY WE DID THIS REVIEW

The World Trade Center Health Program (WTCHP) was established in January 2011. The
WTCHP is administered by the Centers for Disease Control and Prevention (CDC) through its
National Institute for Occupational Safety and Health (NIOSH). Under the WTCHP, CDC’s
Procurement and Grants Office (PGO) contracted with clinics to provide medical services and
pharmacy benefits to eligible responders and survivors with health conditions related to the
September 11, 2001, terrorist attacks on the World Trade Center. As of March 31, 2013,
WTCHP medical service claims totaled $60,755,311, and pharmacy claims totaled $59,701,656.

PGO contracting officers (COs) are responsible for awarding and administering clinic contracts.
NIOSH contracting officer representatives (CORs) serve as the COs’ “eyes and ears” by
monitoring and evaluating clinic performance and reporting deviations from contract terms and
conditions. The COs are responsible for determining the adequacy of clinic performance.

The objective of this review was to determine whether CDC’s PGO and NIOSH monitored and
evaluated clinic compliance with contract terms and conditions, as required by Federal
regulations.

BACKGROUND

The Federal Acquisition Regulation (FAR) establishes the basic requirements for contract
administration by Federal agencies. The U.S. Department of Health and Human Services (HHS)
Acquisition Regulation (HHSAR) provides additional requirements for contracts awarded and
administered by HHS operating divisions. Contractor monitoring is performed jointly by the CO
and the COR. The CO must ensure the contractor’s compliance with all the terms and conditions
of the contract (HHSAR subpart 342.70). The COR monitors contractor performance and
advises the CO about delivery and acceptance or rejection of deliverables and recommends
necessary changes to the schedule of work or period of performance. Agencies must develop
quality assurance surveillance plans (QASP) when acquiring services through performance-
based service contracts. A QASP identifies contract conditions that require monitoring and
describes the method of surveillance. Agencies must prepare interim evaluations of contractor
performance for contracts with a period of performance, including options, exceeding 1 year.

In July 2011, CDC awarded WTCHP contracts, with four annual renewal options, to eight clinics
in the New York/New Jersey metropolitan area. CDC exercised the first renewal option for all
eight contracts in June 2012. WTCHP funds awarded to the clinics as of March 31, 2013, totaled
approximately $57 million.




World Trade Center Health Program Monitoring (A-02-11-02003)                                      i
In conjunction with NIOSH, the PGO established the QASP that the CORs are to follow when
monitoring WTCHP clinic performance. The QASP contains surveillance methods, including
random monitoring and either periodic or 100-percent inspections, and requires the CORs to
document all surveillance.

According to the clinics’ contracts, quarterly evaluations are to be completed jointly by the
CORs and COs. The CORs are to enter the evaluations in the Contractor Performance
Assessment Reporting System (CPARS), an online database for tracking Federal contractor
performance. The finalized evaluations are made available to other Federal Government agency
COs through the Past Performance Information Retrieval System (PPIRS) (FAR § 42.1503).

WHAT WE FOUND

The PGO and NIOSH did not monitor and evaluate clinic compliance with contract terms and
conditions as required by Federal regulations. Specifically, the COs did not ensure that the
CORs used the surveillance methodology established in the QASP to monitor clinic contract
performance. In addition, neither the CORs nor the COs took timely or appropriate action when
they learned of three instances of clinic contract noncompliance. Furthermore, the CORs’ and
COs’ evaluations of contractor performance were not completed as required and were not always
entered into the CPARS and the PPIRS.

These inadequacies occurred because the PGO and NIOSH did not (1) consider the QASP
surveillance methodology to be mandatory or the QASP performance standards to be realistic or
attainable for the clinics and (2) have standard operating procedures to ensure that required
performance evaluations were conducted in a timely manner.

The PGO COs and other agency COs rely on monitoring and evaluation of contractors’
performance to make informed business decisions when awarding and renewing Federal
contracts. Meaningful past-performance evaluations are critical to ensuring that the Federal
Government does business with contractors that deliver quality goods and services on time and
within budget.

WHAT WE RECOMMEND

We recommend that CDC:

    •   monitor clinics’ performance in accordance with contract terms,

    •   address clinics’ noncompliance with contract terms as required by HHSAR
        subpart 342.70, and

    •   follow FAR section 42.1503 by developing and implementing standard operating
        procedures for evaluating contract performance.




World Trade Center Health Program Monitoring (A-02-11-02003)                                    ii
CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In written comments on our draft report, CDC concurred with our recommendations and
described the actions that it has taken to address our recommendations. CDC also provided
technical comments under separate cover. We addressed those comments as appropriate.




World Trade Center Health Program Monitoring (A-02-11-02003)                                iii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

          Why We Did This Review ...................................................................................................1

          Objective ..............................................................................................................................1

          Background ..........................................................................................................................1
                Federal Contracting Requirements ..........................................................................1
                World Trade Center Health Program .......................................................................2
                World Trade Center Health Program Clinics...........................................................3
                World Trade Center Health Program Claim Reimbursement Process.....................3
                World Trade Center Health Program Clinic Contract Monitoring ..........................4

         How We Conducted This Review .........................................................................................4

FINDINGS             ..................................................................................................................................5

          Contracting Officers and Contracting Officer Representatives Did Not Monitor
           the Clinics’ Performance in Accordance With Contract Terms .........................................5

          Contracting Officers and Contracting Officer Representatives Did Not Adequately
           Address the Clinics’ Noncompliance With Contract Terms ............................................6
                 Four Clinics Did Not Submit Medical Service Claims
                   Within Required Timeframe .................................................................................6
                 One Clinic Did Not Ensure Only World Trade Center-Related Conditions
                   Were Claimed .......................................................................................................7
                 Seven Clinics Did Not Review Pharmacy Claims ...................................................7

          Contracting Officers and Contracting Officer Representatives Did Not Complete
           Evaluations of Clinics’ Past Performance as Required.....................................................7

RECOMMENDATIONS .................................................................................................................8

CDC COMMENTS..........................................................................................................................9

APPENDIXES

          A: Audit Scope and Methodology ....................................................................................10

          B: CDC Comments ...........................................................................................................11




World Trade Center Health Program Monitoring (A-02-11-02003)                                                                                         iv
                                      LIST OF ACRONYMS

                CDC                     Centers for Disease Control and Prevention
                CMS                     Centers for Medicare & Medicaid Services
                CO                      Contracting Officer
                COR                     Contracting Officer Representative
                CPARS                   Contractor Performance Assessment Reporting System
                CSC                     Computer Sciences Corporation
                EHCCP                   Environmental Health Center Community Program
                FAR                     The Federal Acquisition Regulation
                HHS                     U.S. Department of Health and Human Services
                HHSAR                   Health and Human Services Acquisition Regulation
                MMTP                    Medical Monitoring and Treatment Program
                NGS                     National Governmental Services
                NIOSH                   National Institute for Occupational Safety and Health
                PGO                     Procurement and Grants Office
                PPIRS                   Past Performance Information Retrieval System
                QASP                    Quality Assurance Surveillance Plan
                WTC                     World Trade Center
                WTCHP                   World Trade Center Health Program




World Trade Center Health Program Monitoring (A-02-11-02003)                                    v
                                                INTRODUCTION

WHY WE DID THIS REVIEW

The World Trade Center Health Program (WTCHP) was established in January 2011 under the
James Zadroga 9/11 Health and Compensation Act of 2010, P.L. No. 111-347 (Zadroga Act).
The WTCHP is administered by the Centers for Disease Control and Prevention (CDC) through
its National Institute for Occupational Safety and Health (NIOSH). Under the WTCHP, CDC’s
Procurement and Grants Office (PGO) contracted with clinics to provide medical services 1 and
pharmacy benefits to eligible responders 2 and survivors 3 with health conditions related to the
September 11, 2001, terrorist attacks on the WTC.

PGO contracting officers (COs) are responsible for awarding and administering clinic contracts.
NIOSH contracting officer representatives (CORs) serve as the COs’ “eyes and ears” by
monitoring and evaluating clinic performance and reporting deviations from contract terms and
conditions. The COs are responsible for determining the adequacy of clinic performance. 4 Our
review focused on CDC’s efforts to monitor and evaluate clinic compliance with WTCHP
contract terms and conditions. 5

OBJECTIVE

Our objective was to determine whether CDC’s PGO and NIOSH monitored and evaluated clinic
compliance with contract terms and conditions, as required by Federal regulations.

BACKGROUND

Federal Contracting Requirements

The Federal Acquisition Regulation (FAR) establishes the basic requirements for contract
administration by Federal agencies. The U.S. Department of Health and Human Services (HHS)

1
  Medical services are limited to initial health evaluations, monitoring, and treatment of World Trade Center (WTC)-
related health conditions, including aerodigestive and musculoskeletal disorders as well as mental health conditions.
2
    Responders are individuals who performed rescue, recovery, demolition, debris cleanup, or related services.
3
 Survivors are individuals who lived, worked, or attended school, childcare, or adult daycare in the New York City
WTC disaster area following the terrorist attacks of September 11, 2001. The Zadroga Act defines this area of
Manhattan as being south of Houston Street and any block in Brooklyn that is wholly or partially contained within a
1.5-mile radius of the former WTC site.
4
  Three COs were responsible for the clinic contracts during our audit period. The PGO appointed one NIOSH
employee to act as the COR for the first year of the contracts and two other NIOSH employees to act as CORs for
the second year of the contracts.
5
  Section 3301(d) of the Zadroga Act requires that we review WTCHP expenditures to detect inappropriate billing
and payment for services, as well as unreasonable administrative costs. However, when we began our fieldwork,
insufficient medical services claims data were available to perform a thorough review because clinics had only
recently begun generating claims. We are planning further work regarding section 3301(d) of the Zadroga Act.


World Trade Center Health Program Monitoring (A-02-11-02003)                                                       1
Acquisition Regulation (HHSAR) provides additional requirements for contracts awarded and
administered by HHS operating divisions. Selected requirements are summarized below.

Contract Monitoring

Contractor monitoring is an essential element of contract administration that is performed jointly
by the CO and the COR (HHSAR § 342.7000). The CO must ensure the contractor’s compliance
with all the terms and conditions of the contract and use program personnel for assistance and
advice in monitoring the contractor’s performance. The CO must also ensure that monitoring
conducted by the CORs conforms to the terms of the contract (HHSAR subpart 342.70). When a
contractor fails to meet the terms of the contract, the CO must issue a written notice requiring the
contractor to either correct the instance of noncompliance or provide an explanation within
10 days (HHSAR § 342.7002).

The COR is responsible for providing technical monitoring during contract performance and
advising the CO on the delivery and acceptance or rejection of deliverables in accordance with
contract terms, assessing contractor performance, and recommending necessary changes to the
schedule of work and period of performance to accomplish the contract’s objectives (HHSAR
§ 342.7001).

Quality Assurance Surveillance Plans

Agencies must develop quality assurance surveillance plans (QASPs) when acquiring services
through performance-based service contracts (FAR §§ 37.604, 46.103(a) and 46.401(a)). QASPs
identify contract conditions that require monitoring and describe the methods of surveillance
(FAR subpart 46.4).

Contractor Performance Evaluations

Agencies must prepare interim evaluations of contractor performance for contracts with a period
of performance, including options, exceeding 1 year (FAR § 42.1502(a)). The evaluations must
be submitted to an online database known as the Past Performance Information Retrieval System
(PPIRS) in accordance with agency procedures (FAR § 42.1503). 6

World Trade Center Health Program

When the WTC buildings collapsed on September 11, 2001, nearly 3,000 people died, and an
estimated 250,000 to 400,000 people who were visiting, living, working, and attending school
nearby or responding to the attack were exposed to a mixture of dust, debris, smoke, and various
chemicals. In the months that followed, thousands of people who returned to the area to live and
work, as well as responders who were involved in site cleanup, were also exposed.



6
 A new rule, effective September 3, 2013, establishes contract evaluation criteria to be used by all Government
agencies, as well as required elements of agency procedures for implementing contractor past-performance
evaluations. See 78 Fed. Reg. 46783.


World Trade Center Health Program Monitoring (A-02-11-02003)                                                      2
From fiscal years 2002 through 2010, Congress provided funding for health evaluations and
diagnostic and treatment services to affected individuals through grants and cooperative
agreements under the World Trade Center Medical Monitoring and Treatment Program (MMTP)
and the World Trade Center Environmental Health Center Community Program (EHCCP).
However, data collection for these programs did not provide sufficient detailed information to
help identify ways to improve program effectiveness and oversight or reliably estimate future
program costs. 7

Congress passed the Zadroga Act to establish, among other things, greater accountability for
administering the WTCHP. In response to the Zadroga Act’s requirement to provide for the
uniform collection of claims data, CDC implemented a fee-for-service medical claims
reimbursement process. The Zadroga Act funded the WTCHP for a 5-year period beginning
July 1, 2011, with Federal funding capped at approximately $1.6 billion. As of March 31, 2013,
approximately 64,000 individuals were enrolled in the WTCHP.

World Trade Center Health Program Clinics

In July 2011, CDC awarded WTCHP contracts, with four annual renewal options, to eight clinics
in the New York/New Jersey metropolitan area. 8 From July 1, 2011, to March 31, 2013, the
eight clinics were awarded a total of $56,601,281 in WTCHP contract funds.

Under the contracts, the clinics were reimbursed for contract deliverables related to member
services (e.g., conducting outreach activities and providing benefits counseling) and
administrative services (e.g., reviewing medical service claims data for appropriateness and
collecting and reporting monitoring and treatment data). CDC exercised the first renewal option
for all eight contracts in June 2012.

World Trade Center Health Program Claim Reimbursement Process

At WTCHP clinics, physicians provide medical services and prescribe medication to eligible
WTCHP responders and survivors. After clinic review and approval, the claims are submitted to
Computer Sciences Corporation (CSC), a claims-processing intermediary under contract to CDC.
After adjudication by CSC, claims are (1) denied, (2) held pending receipt of additional
information, or (3) forwarded to National Governmental Services (NGS) for payment. NGS
processes reimbursement of medical service and pharmacy claims using WTCHP funds
disbursed by HHS’s Centers for Medicare & Medicaid Services (CMS). 9 As of March 31, 2013,
NGS paid WTCHP medical service claims totaling $60,755,311 and pharmacy claims totaling
$59,701,656.




7
  MMTP and EHCCP data did not include information regarding responders’ health, specific services that
responders received, and the cost of providing services to responders.
8
    Some of the clinics offer services at more than one location in the New York/New Jersey metropolitan area.
9
    Section 3306(14)(B) of the Zadroga Act prohibits CDC from paying WTCHP medical service claims.


World Trade Center Health Program Monitoring (A-02-11-02003)                                                     3
World Trade Center Health Program Clinic Contract Monitoring

Quality Assurance Surveillance Plan

In conjunction with NIOSH, the PGO established the QASP that the CORs are to follow when
monitoring WTCHP clinic performance. 10 The QASP contains performance standards for 15
contract deliverables that require surveillance. Eight of the standards relate to administrative
activities (e.g., checking providers’ licensing, handling member complaints, and conducting
quality assurance audits). Five of the standards relate to medical service quality control activities
(e.g., reviewing and approving medical service and pharmaceutical claims and ensuring that only
WTCHP-related conditions are claimed). The remaining two standards relate to member service
activities (i.e., updating member contact information and updating a program information Web
site).

For each of the 15 standards, the QASP contains surveillance methods to be followed, including
random monitoring and either periodic or 100-percent inspections. The QASP also contains a
surveillance report template for use in documenting performance of surveillance and results. The
CORs are required to document all surveillance, and if a clinic’s performance was unacceptable,
the CORs are required to inform the CO and document the discussion.

Contractor Performance Evaluations

The clinic contracts specify that evaluations would be completed jointly by the CORs and the
COs quarterly. The CORs are to enter the evaluations in the Contractor Performance
Assessment Reporting System (CPARS), an online database for tracking Federal contractor
performance. The COs are to review and approve the evaluations and then forward them to the
clinics for comment. Final evaluations and clinic comments are made available to other Federal
Government contracting officers through the PPIRS. 11 PGO officials informed us that before
deciding whether to renew a contract, a CO can review completed evaluations on the contractor
in the PPIRS, including those completed by other Federal agencies.

HOW WE CONDUCTED THIS REVIEW

We reviewed CDC’s efforts to monitor and evaluate clinic contract performance during the
period July 1, 2011, through March 31, 2013. Specifically, we visited clinics and interviewed
clinic officials to identify any contract compliance issues. We also visited and interviewed PGO
and NIOSH officials to determine the extent of CDC’s contract monitoring efforts. In addition,
we reviewed the QASP developed by both the PGO and NIOSH, as well as clinic performance
evaluations prepared by NIOSH.



10
  In June 2013, NIOSH and PGO revised the QASP with the exercise of the second renewal option of the clinic
contracts.
11
  The PPIRS is a Web-enabled application that provides timely and pertinent contractor past-performance
information to the Federal acquisition community for use in making source-selection decisions. The PPIRS assists
acquisition officials by serving as the Federal Government’s single source for contractor past-performance data.


World Trade Center Health Program Monitoring (A-02-11-02003)                                                       4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The details of our audit scope and methodology are contained in Appendix A.

                                             FINDINGS

The PGO and NIOSH did not monitor and evaluate clinic compliance with contract terms and
conditions as required by Federal regulations. Specifically, the COs did not ensure that the
CORs used the surveillance methodology established in the QASP to monitor clinic contract
performance. In addition, neither the CORs nor the COs took timely or appropriate action when
they learned of three instances of clinic contract noncompliance. Furthermore, the CORs’ and
COs’ evaluations of contractor performance were not completed as required and were not always
entered into the CPARS and the PPIRS.

These inadequacies occurred because the PGO and NIOSH did not (1) consider the QASP
surveillance methodology to be mandatory or the QASP performance standards to be realistic or
attainable for the clinics and (2) have standard operating procedures to ensure that required
performance evaluations were conducted in a timely manner.

The PGO COs and other agency COs rely on monitoring and evaluation of contractors’
performance to make informed business decisions when awarding and renewing Federal
contracts. Meaningful past-performance evaluations are critical to ensuring that the Federal
Government does business with contractors that deliver quality goods and services on time and
within budget.

CONTRACTING OFFICERS AND CONTRACTING OFFICER REPRESENTATIVES
DID NOT MONITOR THE CLINICS’ PERFORMANCE IN ACCORDANCE WITH
CONTRACT TERMS

Federal regulations require that contractor performance be monitored to ensure compliance with
contract terms and conditions (HHSAR subpart 342.70). The COs are responsible for ensuring
that the monitoring conforms to the terms of the contracts (HHSAR § 342.7001). The contracts
outline a QASP containing performance standards for 15 contract deliverables that are to be
surveyed through random monitoring and either periodic or 100-percent inspections. The CORs
are responsible for monitoring clinic contract performance by using the QASP and documenting
surveillance actions (HHSAR § 342.7001 and FAR § 46.401).

The COs did not ensure that the CORs used the surveillance methodology established in the
QASP to monitor clinic contract performance. Rather than inspecting or randomly monitoring
the 15 contract deliverables as required by the QASP, the CORs conducted frequent status
meetings with clinic officials—either in-person or by telephone—and reviewed the clinics’
monthly progress reports on their activities and accomplishments. Although the CORs



World Trade Center Health Program Monitoring (A-02-11-02003)                                     5
maintained limited documentation related to these activities, they did not document that the
monitoring performed addressed the deliverables outlined in the QASP.

PGO and NIOSH officials stated that they did not use the QASP because they did not consider
the use of the QASP surveillance methodology to be mandatory. 12 Additionally, the officials
considered the QASP performance standards outlined in the contract to be unrealistic or
unattainable for the clinics because the WTCHP was a new and evolving program.

CONTRACTING OFFICERS AND CONTRACTING OFFICER REPRESENTATIVES
DID NOT ADEQUATELY ADDRESS THE CLINICS’ NONCOMPLIANCE WITH
CONTRACT TERMS

The CO must ensure that contractor performance complies with contract terms and conditions
(HHSAR § 342.7001(d)). 13 Federal regulation requires that, when a clinic fails to meet the terms
of its contract, the CO must issue a written notice requiring the clinic to either correct the
instance of noncompliance or provide an explanation within 10 days (HHSAR § 342.7002). The
COR is responsible for providing technical monitoring and recommending necessary changes to
the contract to accomplish the contract objectives (HHSAR § 342.7001(c)).

We identified three instances of clinic contract noncompliance. The COs and the CORs had
been holding ongoing meetings with the noncompliant clinics and learned of the instances of
noncompliance; however, the COs did not issue written notices 14 to the clinics directing them to
take corrective action. Moreover, the CORs did not recommend changes to accomplish the
contracts’ objectives. Consequently, clinics were noncompliant with key contract terms
throughout our audit period and CDC did not receive all of the services for which it had
contracted.

Four Clinics Did Not Submit Medical Service Claims Within Required Timeframe

Clinics are contractually required to submit claims data to CSC within 2 weeks of receipt from
physicians. Four of the clinics did not comply with the 2-week requirement. Officials from the
four clinics stated that before claims could be submitted, they had to review charges for accuracy
and appropriateness, which they considered time consuming. Additionally, one clinic was
required to seek reimbursement from WTCHP members’ other health insurers before billing the
WTCHP.



12
   CDC stated that PGO and NIOSH recognized that the QASP was a tool used to conduct surveillance of clinics’
performance. However, CDC determined that the initial QASP inaccurately reflected the best approach for
monitoring the clinics’ performance during the startup period of the contracts because of unanticipated challenges of
starting up the WTCHP.
13
  The clinic contracts were renewed in June 2013, and some of the contract terms were modified. We did not
review the renewed contracts because they were renewed after our audit period.
14
  The CO orally gave the clinic, which did not ensure that only WTC-related conditions were claimed, 30 days to
submit a corrective action plan in September 2012.


World Trade Center Health Program Monitoring (A-02-11-02003)                                                        6
One Clinic Did Not Ensure Only World Trade Center-Related Conditions
Were Claimed

Clinics are contractually required to ensure that only WTC-related conditions are claimed for
reimbursement under the WTCHP. One clinic did not submit any medical service claims for
reimbursement until February 2012, when the clinic began submitting all claims for its members,
whether WTC-related or not. The clinic continued to submit all claims through February 2013
and relied on CSC to identify and deny non-WTC-related claims. The clinic began to manually
review and identify WTC-related clinic member claims on a monthly basis in March 2013. Only
then did it identify and submit claims for WTC-related health conditions to CSC for
reimbursement. Clinic officials stated that the clinic’s financial systems could not identify and
segregate claims for WTC-related conditions, but they planned to manually review and resubmit
claims for the period before March 2013.

Seven Clinics Did Not Review Pharmacy Claims

Section 3312(b)(4)(B) of the Zadroga Act allows for the coverage of medically necessary
prescription drugs. Under the WTCHP, clinic physicians prescribe medications for members’
WTC-related health conditions. WTCHP members take these prescriptions to the pharmacies of
their choice to be filled. Clinics are contractually required to review and approve all WTCHP
prescriptions before the pharmacy fills them. The contract does not specify or require the
Government to furnish a system or method by which prescriptions would be reviewed and
approved. The contract does require the review to include matching the prescription to the
WTC-related health condition for which the medication was prescribed. Pharmacy claims are
adjudicated and submitted to NGS for payment by the WTCHP pharmacy benefits manager,
Emdeon. As of March 31, 2013, paid pharmacy claims totaled $59,701,656.

Only one clinic developed a method to enable it to review and approve member prescriptions
before they were filled by pharmacies during our audit period. The remaining seven clinics did
not review and approve their members’ WTCHP prescriptions before they were filled. Officials
from the seven clinics stated that they were unable to comply with this contract requirement for
various reasons, including: (1) reviewing prescriptions would be time consuming; (2) other
controls, such as a limited formulary, were in place; and (3) neither NIOSH nor the pharmacy
benefits manager provided a method that would allow review and approval of prescriptions
before their being filled.

CONTRACTING OFFICERS AND CONTRACTING OFFICER REPRESENTATIVES
DID NOT COMPLETE EVALUATIONS OF CLINICS’ PAST PERFORMANCE AS
REQUIRED

Past-performance evaluations demonstrate whether the contractor conformed to contract
requirements, forecasted and controlled costs, adhered to the contract schedule, was reasonable
and cooperative, had a record of good business ethics, and had a business-like concern for the
interest of the customer.

Agencies must prepare interim evaluations of contractor performance for contracts with a period
of performance, including options, exceeding 1 year (FAR § 42.1502(a)). According to the


World Trade Center Health Program Monitoring (A-02-11-02003)                                       7
clinic contracts, quarterly evaluations are to be completed jointly by the COs and the CORs. The
evaluations must be completed in the CPARS and submitted to the PPIRS in accordance with
agency procedures (FAR § 42.1503). PGO officials informed us that before deciding whether to
renew a contract, a CO can review completed evaluations on the contractor in the PPIRS,
including those completed by other agencies. Final evaluations and clinic comments are made
available to other Government agency contracting officers through the PPIRS as records of
contractor performance.

The COs and CORs did not complete clinic evaluations quarterly as required. As of March 31,
2013, each clinic should have had six performance evaluations. However, only two evaluations
had been completed for each of the eight clinics covering varying performance periods.
Fourteen of the 16 completed evaluations were entered into the CPARS; however, only 1 of the
16 was finalized and submitted to the PPIRS. Further, the completed evaluations included only
the instance of noncompliance concerning one clinic’s inability to submit appropriate claims data
and did not include the other two instances of contract noncompliance described above. The
COs and the CORs stated that they did not include two of the instances of contract
noncompliance in evaluations because they did not consider them significant enough to affect the
contractors’ performance ratings. Nevertheless, CDC renewed the contracts without modifying
them to address the clinics’ contract noncompliance.

During our audit period, CDC did not have any standard operating procedures for contractor
performance evaluations. Additionally, the PGO did not grant the CORs access 15 to clinic
contracts in the CPARS at the start of the CORs’ appointments.

Without current contract performance evaluations, CDC did not have the information necessary
to make adequate contracting decisions. Meaningful past-performance evaluations are critical to
ensuring that the Federal Government does business with companies that deliver quality goods
and services on time and within budget.

                                       RECOMMENDATIONS

We recommend that CDC:

     •   monitor clinics’ performance in accordance with contract terms,

     •   address clinics’ noncompliance with contract terms as required by HHSAR subpart
         342.70, and

     •   follow FAR section 42.1503 by developing and implementing standard operating
         procedures for evaluating contractor performance.




15
  One COR was never granted access to his contracts in the CPARS, another COR’s access was delayed 10 months,
and the third COR’s access was delayed 5 months.


World Trade Center Health Program Monitoring (A-02-11-02003)                                                8
                                         CDC COMMENTS

In written comments on our draft report, CDC concurred with our recommendations and
described the actions that it has taken to address our recommendations. CDC also provided
technical comments under separate cover. We addressed those comments as appropriate.

CDC’s comments, except for technical comments, appear as Appendix B.




World Trade Center Health Program Monitoring (A-02-11-02003)                                9
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed PGO and NIOSH procedures for monitoring and evaluating clinics’ contract
performance, as well as clinics’ compliance with the contract terms and conditions, during the
period July 1, 2011, through March 31, 2013. We did not perform an overall assessment of the
internal control structures of the PGO, NIOSH, or the clinics. Rather, we reviewed only the
internal controls related to our objective.

We conducted fieldwork at PGO and NIOSH administrative offices in Pittsburgh, Pennsylvania,
and Atlanta, Georgia, and at the eight clinics located throughout the New York/New Jersey
metropolitan area during the period September 2011 through June 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed relevant Federal requirements;

    •   reviewed WTCHP contracts awarded to the clinics;

    •   held discussions with PGO officials to gain an understanding of the PGO’s role in
        awarding and renewing WTCHP contracts, as well as ensuring contractor compliance;

    •   held discussions with NIOSH officials and reviewed the QASP and COR clinic files to
        gain an understanding of NIOSH’s procedures for monitoring and evaluating clinics’
        contract performance;

    •   interviewed officials at all eight clinics and reviewed the clinics’ written procedures to
        identify any contract compliance issues;

    •   reviewed NIOSH’s clinic performance evaluations to determine whether the contract
        compliance issues we identified were included; and

    •   discussed the results of our review with CDC officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




World Trade Center Health Program Monitoring (A-02-11-02003)                                         10
                                    APPENDIX B: CDC COMMENTS 





  CJ           U.S. DEI'ARTMENT Of HEALTH AND HUMAN SEilVICES                             Public Health Service


                                                                                          Centers for Disease Control
                                                                                            and Prevention (CDC)
                                                                                          Atlanta GA 30333




           TO:            Inspector General, U.S. Department ofHealth and Human Services

           FROM :         Director, Centers for Disease Control and Prevention

           DATE:          November 27, 2013

           SUBJECT:       Office ofInspector Genera l's Draft Report: "World Trade Center Health Program :
                          CDC Should Strengthen Efforts To Monitor and Evaluate Clinic Compl iance
                          With Contract Terms" (A-02-11-02003)


           The Centers for Disease Control and Prevention (CDC) appreciates the opportunity to review
           and comment on the Office ofinspector General's (OIG) draft report, "World Trade Center
           Health Program: CDC Should Strengthen Efforts to Monitor and Evaluate Clinic Compliance
           With Contract Terms." Thank you for your review of this important program.

           As s tated in the draft report, the objecti ve of this review was to determine whether CDC's
           Procurement and Grants Office (PGO) and National Insti tute for Occupational Safety a nd Health
           (NIOSH) monitored and evaluated World Trade Center Health Program (WTCHP) c linic
           compliance with contract terms and conditions, as required by federal regulat ions. The draft
           report identified tlu·ee findin gs regardi ng the improper monitoring and evaluation of clinic
           complia nce and provided the following recommendations to address these fi ndings:

           OIG Recommendation: OIG recommends that CDC monitor clinics' performance in
           accordance with contract terms.

           C DC Res ponse: CDC concurs with this recommendation and understands contractor monitoring
           is an essential element of contrac t administration that is performed jointly by the Contracting
           Officer (CO) a nd the Contracting Officer's Representative (COR)- HHSAR 342.7000. PGO is
           aware ofthe requirement for a Qual ity Assurance Surveillance Plan (QASP) when acquiring
           services tlu·ough performance-based servi ce contracts and established a QASP for monitoring the
           WTCHP clinic performance.

           The initial QASP measures were created as perform ance standards to be achieved by the
           contractors. However, due to early challenges of startin g the new WTCHP and new requirements
           developed under the Zadroga Act, CDC realized that the initial contract QASP did not reflect the
           best approach for monitoring c linics' performance during the early start-up period of the
           contracts. Priority was given to maintaining continuity of health care, as required by the Zadroga
           Act.




World Trade Center Health Program Monitoring (A-02 -11 -02003)                                                          11
           1\s a result of the Zadroga Act, NIOSH was required to solicit, contract, and stand up an entire
           health care system in an extremely short period of time (over a period of a few months). To
           comply with new requirements in the Zadroga Act, CDC awarded competitive cost plus fixed fee
           contracts to the clin ical centers in support ofthe WTCHP. The cl inical centers were unfamiliar
           with federal cont racts and had to develop n ew institutional channels to process fee-for-service
           bills and administrative tracking systems to enable them to authorize services by a n etwork of
           external providers rendering diagnostic and treatment services to program members. These issues
           created a significant learning curve for the clinical centers.

           In addition, the Zadroga Act required clinical centers to adhere to uniform standards and submit
           1miform claims. After the work commenced, CDC realized that making the existing systems of
           the Cl inical Center contractors conform to uniform standards was going to require more effort
           than anticipated. CDC he ld monthly status meetings between the CO, the COR, and the
           contractors to monitor the clinics' performance and address issues. NIOSH also held weekly
           clinical director and admjnistration telephone meetings with the Cli nical Center of Excellence
           (CCE), during which the COR add ressed issues and worked with each CCE to resolve any
           perceived non-compliance issues. During this time, and in consideration of unant icipated start-up
           issues and challenges, it was determined that the QASP needed to be modified to better suit the
           requirements and capture changes to the measures and methods ofsurveillance. The CO and
           COR determined that the Clinical Center contractors shou ld have been g iven a start-up period of
           one year before QASP measures were applied to give the Clinical Centers and the government
           lime to become fully operational. Therefore, monitoring of contract performance focused on the
           contractors' efforts to modify their systems to achieve the uniform standards during the start-up
           period.

           The CO worked with the CORs and the contractors to update the QASP, and the updated QASP
           was incorporated into the contract through a contract modification in Apri l 20 13. The CORs
           have conducted various site visits with each clinic for QASP reviews in November/December
           2012, April 20 13, and October/November 2013. The CO conducted field observation during the
           COR's site visits and coutirmed thal the QASP was bdng properly utilized for quality assurance.
           More robust documentation is now required for site visits. The COHs document and review the
           performance objectives that comprise the QASP requirements. The CORS, along with technical
           assistance from pharmacy and medical benefit experts and member services, review the
           performance measures and work with PGO to determine possi ble remedies, as needed. If any
           deficiencies are fou nd, corrective action plans will be obtained from the contractors; these will
           be included in the file and monitored to ensure corrective action is taken .

           OIG R ecommendation: OIG recommends that CDC address clinics' non-compliance with
           contract terms, as required by the U.S. Department ofHealth and Human Services Acquisition
           Regulation subpart 342.70.

           CDC Response: CDC concurs \>Vith this recommendation. OIG identified three instances of
           c linic contract non-compliance: (1) four cl inics did not subm it medical service claims within the
           required timeframe; (2) one clinic did not ensure that only World Trade Center-related
           conditions were claimed; and (3) seven clinics did not review pharmacy c laims.



                                                                                                                  2




World Trade Center Health Progrcon Monitoring (A-02-11-02003)                                                         12
           In each instance, PGO acted to ensure the correction of non-compliance issues. The COs and the
           CORs have been holding regu lar progress meetings with the clinics to discuss contract issues.
           As a new, high!)' complex requirement, PGO and NIOSH faced many challenges during the
           start-up period ofthe contracts that required a full review of the contract statement of work and
           QASP. The full contract review identified issues with both the statement ofwork and the QASP.
           PGO and NIOSH worked to identify and address all critical issues before formally issuing
           contract modificat ions to revise the statement of work and QASP. Tlu·ough a modification in
           April2013, the QASP was revised to fit the different nuances of each clinic and incorporated
           into the contracts. A contract modification was also issued in June 2013 to revise the statement
           of work to adjust contract requirements to reflect needed changes that were identified during the
           start-up period. The three areas of non-compliance identified in the OIG report were addressed in
           these modifications .

           OI G Rccouuucuda ti on : OIG recommends that CDC follow Federal Acquisition Regulation
           (FAR) 42.1503 by developing and implementing a standard operating procedure (SOP) for
           evaluating contract p erformance .

           cnc Hesponse: CDC concurs with this recommendation and has addressed this finding in an
           appropriate manner. Prior to receiving the draft report on October 24, 2013, PGO proactively
           developed an SOP, entitled "Contractor Performance Assessment Reporting," to improve
           evaluation of contractor performance and ensure compliance with FAR 42.1 5. The SOP was
           issued on April 9, 2013, and all PGO acquisition staff received training on the SOP on April 9,
           2013.

           PGO's SOP codifies our policy to utilize the Contractor Performance Assessment Reporting
           System (CPARS) to electronically record evaluations of contractor performance and to submit
           past performance information into the Past Performance Information Retrieval System. T he SOP
           also provides guidance regarding when interim and fum! CPARS reports should be completed.

           All CDC contracts that require reporting of contractor performance infoxmation will be
           registered in CPARS within 14 clays of award, and CPARS reports will be completed within 90
           days of the end of the period ofperformance that is bejng evaluated. Contracts that were awarded
           prior to the issuance of the SOP, and not registered in CPARS at the time of award, will be
           registered within 14 days ofexercising options or contract expiration.

           The SOP includes a clause and provision to be included in all applicable contracts and
           solicitations . The clause and provision serve as notice to contractors of CDC's intent to use
           CPARS for recording and maintaining contractor performance evaluations. Contractors are also
           notified that information contained in the performance evaluations may be used by the U .S.
           Government for future source selections when past performance is an evaluation factor. This
           clause has been incorporated into the WTCHP contracts by contract modification.

           CDC's Contracting Officer's Representative Appointment Letter was also revised to notify
           CORs of their duty to usc Cf>ARS to complete interim and final past performance assessments of
           contractor's performance, when required by FAR 42.1 5, as one of the terms and conditions of
           their appointment.


                                                                                                             3




World Trade Center Health Progrcon Monitoring (A-02-11-02003)                                                    13
           We appreciate your conside ration of the comments contained in this memo as you develop the
           final report. We are happy to discuss any of these issues with you. Please direct any questions
           regarding these comments to 01'. Janean Lomax, OJG, CDC Liaison, at (404) 639-2809 or
           iggao@cdc.gov.



                                                            T homas R . Frieden, MD, MPH




                                                                                                             4




World Trade Center Health Program Monitoring (A-02 -11-02003)                                                    14
